IN THE SUPREME COURT OF THE UNITED STATES
WESTERN DISTRICT OF MICHIGAN

Oovon C. Davis,

Petitioners,

20-6245

y

■»

Lower Court No. 13-303-FC
Court of Appeals No. 370773
Michigan Supreme Court No. 153924
Habeas Corpus No. 2:10-cv-10391
U.S. C.O.A. No. 19-1540

V.

Connie Horton,
Respondent.

PETITIONER FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

FILED
HAY 0 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

In Care Of:

Oovon C. Davis# 591753
Pro Se
Chippewa Correctional Facility
4269 West M-00
Kincheloe, Michigan 497B4-1634

RECEIVED
NOV - 4 2020
supi®°FcToTWgRsK

QUESTIONS PRESENTED

T. WHERE PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS GUARANTEED UNDER THE U.S. CONSTITUTION AS WELL
AS MICHIGAN CONSTITUTION OF 1963, ART.I,§20 DENIED,
WHERE THE TRIAL COURT ABUSED ITS DISCRETION BY FAILING
TO HEAR PETITIONER'S MOTION FOR SUBSTITUTION OF
APPELLATE COUNSEL?
2. WHERE PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED
UNDER THE U.5. CONSTITUTION DENIED, WHERE THE TRIAL
COURT REFUSED TO ADJOURN HIS CASE ONCE NEW COUNSEL WAS
RETAINED?
3. WHERE PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS GUARANTEED UNDER U.5. CONSTITUTION, TO A FAIR
TRIAL AND DUE PROCESS DENIED, WHERE THE TRIAL COURT
ABUSED ITS DISCRETION, WHEN ENDORSING A LATE WITNESS
AND DENYING PETITIONER AN ADJOURNMENT TO PREPARE AN
EFFECTIVE CROSS EXAMINATION?
4. WHERE PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS, AND MICHIGAN CONSTITUTION OF 1 963,ART.1,§17,
DENIED, WHERE THE TRIAL COURT ABUSED ITS DISCRETION IN
MOTION
FOR
DENYING
PETITIONER'S
DISQUALIFICATION/RECUSAL?
5. WHERE PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED
UNDER THE U.S. CONSTITUTION TO EFFECTIVE ASSISTANCE OF
TRIAL COUNSEL DENIED, WHERE COUNSEL FAILED TO
INVESTIGATE SEVERAL ASPECTS OF THE CASE, AND INSTEAD,
RELIED ON GOVERNMENT'S GOOD FAITH EFFORTS, WHICH IS
CONTRARY TO STRICKLAND V WASHINGTON, AND ITS PROGENY?
6. WHERE PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS GUARANTEED UNDER THE U.S. CONSTITUTION TO
EFFECTIVE ASSISTANCE OF COUNSEL DENIED, WHERE COUNSEL
DENIED PETITIONER A MEANINGFUL OPPORTUNITY TO PRESENT A
COMPLETE DEFENSE?
6.(A) WHERE PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE TO TRIAL COUNSEL DENIED, WHERE COUNSEL
REFUSED TO CONDUCT A MEANINGFUL CONSULTATION WITH
PETITIONER?
6. (B)
WHERE . PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE TO TRIAL COUNSEL DENIED, WHERE COUNSEL
REFUSED TO CONDUCT A MEANINGFUL INVESTIGATION, TO WIT,
WITNESSES CRIMINAL HISTORY, WHICH WAS MATERIAL TO THE
CASE?

I

6.(0
WHERE PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL DENIED, WHERE COUNSEL
FAILED TO INVESTIGATE KNOWN AND POTENTIAL KEY WITNESS
(OAIL HOUSE WITNESS)?
6-(D) WHERE PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL DENIED, WHERE COUNSEL WAS
INFIRM IN CROSS EXAMINING PROSECUTION WITNESSES?
6. (E)
WHERE PETITIONER'5 SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL DENIED, WHERE COUNSEL
FAILED TO OBDECT TO CONES TESTIMONY?
6.(F)
WHERE PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL DENIED, WHERE COUNSEL
FAILED TO HIRE AN INVESTIGATOR OR EXPERT WITNESS FOR
HIS DEFENSE?
6.(G) WHERE PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONSTITUTION TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL DENIED, WHERE COUNSEL
FAILED TO OBOECT TO THE PROSECUTOR'S ADMITTANCE OF
EVIDENCE NOT OF RECORD?
7. WHERE PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED
UNDER THE U.S. CONSTITUTION TO EFFECTIVE ASSISTANCE OF
TRIAL DENIED, WHERE COUNSEL OF RECORD FAILED TO PRESENT
A DEFENSE AND PROPERLY INVESTIGATE ANY POTENTIAL
WITNESSES FOR HIS DEFENSE?
8. WHERE PETITIONER'S FIFTH, SIXTH, AND FOURTEENTH
AMENDMENT RIGHTS GUARANTEED UNDER THE U.S. CONSTITUTION
DENIED, WHERE HE WAS DENIED A FAIR CROSS SECTION OF
3URY SELECTION AT TRIAL, THEREBY DENYING HIM DUE
PROCESS AND EQUAL PROTECTION OF THE LAW?
9. WHERE PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS GUARANTEED UNDER THE U.S CONSTITUTION TO
EFFECTIVE ASSISTANCE OF COUNSEL ON APPEAL AS OF RIGHT,
DENIED WHERE COUNSEL DENIED PETITIONER ACCESS TO THE
COURT'S AND OUDICIAL REVIEW?

II

PARTIES TQ THE PROCEEDINGS

{•

Oovon C. Davis# 591753
Chippewa Correctional Facility
4269 West M-80
Kincheloe, Michigan 497B4
Pro Se Representation for Petitioner

Linus Banghart - Linn
Assistant Attorney General
Criminal Appellate Division
P.D. BOX 30217
Lansing, Michigan 4B909

III

QUESTIONS PRESENTED FOR REVIEW

I.
X.

PARTIES TO THE PROCEEDINGS
INDEX OF AUTHORITIES
CITATIONS OF OPINIONS AND ORDER IN CASE

1.

3URISDICTI0N STATEMENT

1.

CONSTITUTIONAL PROVISION AND STATUTES INVOLVED

1.

STATEMENT OF THE CASE

2.

EXISTENCE OF JURISDICTION BELOW

4.

REASON FOR GRANTING THE WRIT

4.

ARGUMENTS AMPLIFYING REASONS FOR WRIT

I. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS THAT
PETITIONER'S
SIXTH AND FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION, AS WELL AS MICH. CONST.OF ART.1§20, WHERE NOT VIOLATED, WHERE TRIAL
ABUSED ITS DISCRETION, BY DISCRETION, BY FAILING TO HEAR PETITIONER'S MOTION FOR
SUBSTITUTION OF APPELLANT COUNSEL.
13.
II. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BA5IS THAT
PETITIONER'S SIXTH AMENDMENT RIGHT, GUARANTEED UNDER THE U.S. CONST • I WHERE NOT
VIOLATED, WHEN TRIAL COURT REFUSED TO ADJOURN HIS CASE ONCE NEW COUNSEL WAS OBTAINED.

16.
III. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS THAT
PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER THE U.5. CONST., TO
A FAIR TRIAL AND DUE PROCESS WHERE NOT VIOLATED, WHERE TRIAL COUNSEL ABUSED ITS
DISCRETION WHEN ENDORSING A LATE WITNESS AND DENYING PETITIONER AN ADJOURNMENT TO
PREPARE AN EFFECTIVE CROSS EXAMINATION.
1 B.
IV. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION, ON THE BASIS THAT
PETITIONER'S FOURTH AND FOURTEENTH AMENDMENT RIGHTS , AND MICHIGAN OF 1963,ART.I§17,
WHERE NOT VIOLATED, WHERE THE TRIAL COURT ABUSED ITS DISCRETION, BY DENYING
PETITIONER'S MOTION FOR DISQUALIFICATION/RECUSAL.
22.
V. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS THAT
PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE OF COUNSEL, WHERE NOT VIOLATED, WHERE COUNSEL FAILED TO INVESTIGATE SEVERAL
ASPECTS OF THIS CASE AND INSTEAD, RELIED ON THE GOVERNMENT'5 GOOD FAITH EFFORTS, WHICH
IS CONTRARY TO STRICKLAND V WASHINGTON, AND ITS PROGENY.
25.
VI. THE COURT OF APPEALS ERRED AFFIRMING PETITIONER'S CONVICTION ON THE BASIS THAT,
PETITIONER'S"SIXTH AND FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST • t TO
EFFECTIVE ASSISTANCE OF COUNSEL WHERE NOT VIOLATED, WHERE COUNSEL DENIED PETITIONER A
MEANINGFUL OPPORTUNITY TO PRESENT A COMPLETE DEFENSE.
2B.

IV

VI.(A) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONSTITUTION TO
EFFECTIVE ASSISTANCE OF TRIAL COUNSEL, WHERE NOT VIOLATED, WHERE COUNSEL REFUSED TO
29.
CONDUCT A MEANINGFUL CONSULTATION WITH PETITIONER.
VI.(B) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE TO TRIAL COUNSEL, WHERE NOT VIOLATED, WHERE COUNSEL REFUSED TO CONDUCT A
MEANINGFUL INVESTIGATION, TO-WIT WITNESSES CRIMINAL HISTORY, WHICH MATERIAL TO THE CASE
30.
VI(C). THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S SIXTH AMENDMENT RIGHT
GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL, WAS NOT
32.
VIOLATED, WHERE COUNSEL FAILED TO INVESTIGATE KNOWN AND POTENTIAL KEY WITNESS.
VI.(D) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONSTITUTION, TO
EFFECTIVE ASSISTANCE OF TRIAL COUNSEL, WAS NOT VIOLATED, WHERE COUNSEL WAS INFIRM IN
33.
CROSS-EXAMINATING PROSECUTION WITNESSES.
VI.(E) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL, WAS NOT VIOLATED, WHERE COUNSEL FAILED TO OBJECT TO JONES
34.
TESTIMONY.
VI.(F) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION, ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL FAILED TO HIRE AN INVESTIGATOR OR EXPERT WITNESS FOR HIS
36.
DEFENSE.
VI. (G) THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION, ON THE BASIS
THAT PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL, WAS NOT VIOLATED, WHERE COUNSEL FAILED TO OBJECT TO THE
37.
PROSECUTOR'S ADMITTANCE OF EVIDENCE, NOT OF RECORD.
VII. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION, ON THE BASIS THAT
PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE
ASSISTANCE OF TRIAL COUNSEL, WAS NOT DENIED, WHERE COUNSEL OF RECORD FAILED TO PRESENT
A DEFENSE AND PROPERLY INVESTIGATE AND INTERVIEW ANY POTENTIAL WITNESSES FOR HIS
3B.
DEFENSE.
VIII. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION ON THE BASIS THAT
PETITIONER'S FIFTH, SIXTH, AND FOURTEENTH RIGHT UNDER THE U.S. CONSTITUTION, WHERE NOT
VIOLATED, WHERE PETITIONER WAS DENIED A FAIR CROSS SECTION OF JURY SELECTION AT TRIAL,
40.
THEREBY DENYING HIM DUE PROCESS AND EQUAL PROTECTION OF THE LAW.
IX. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S CONVICTION, ON THE BASIS THAT
PETITIONER'S CONVICTION, ON THE BASIS THAT PETITIONER'S SIXTH AND FOURTEENTH AMENDMENT
RIGHTS GUARANTEED UNDER THE U.S. CONST. TO EFFECTIVE ASSISTANCE OF COUNSEL ON APPEAL,
AS OF RIGHT, WHERE NOT DENIED/VIOLATED, WHERE C0UN5EL DENIED PETITIONER'S ACCESS TO THE
42.
COURTS AND JUDICIAL REVIEW.
46.

CONCLUSION

V

47.

RELIEF REQUESTED
VERIFICATION/CERTIFICATION

47.

PROOF OF SERVICE

48.

APPENDIX TO PETITION

49.

VI

INDEX OF AUTHORITIES

Akins v Texas, at 408

12

Alcorta v Texas, 355 U.S. 2B (1957)

38

Arizona v Fulimate, 499 U.S. 279 (1991)

19

Avery v Alabama, 306 U.S. 444 (1940)

17

Avery v Prelusnik, 548 F.3d 424 (6th Cir.2008)

32

Batson v Kentucky, 476 U.S. 79

1 2,41

Beasley v U.S. 491 F.2d 687 (6th Cir.1974)

25,31

Benger v U.S. 255 U.S. 22 (1921)

24

Brewer v Williams, 430 U.S. 387

11

Bryant v Scott, 28 F.3d 1411 (1994)

30

Brown v Craven, 424 F.2d 1166

4

California v Trombetta, 476 U.S. 479 (1984)

29

Chambers v Mississippi, 410 U.S. 284 (1973)

11

Chapman v California, 386 U.S. 1B,23N (1967)

24

Clemmons v Wolfe, 377 F.3d 322 (3rd Cir.2004)

24

Crompton v Dept, of State, 395 Mich 351 (1973)

6,24

Crane v Kentucky, 476 U.S. 683 (1986)

29,30

Cuyler v Sullivan, 446 U.S. 342

11,39,45

Davis v Alaska, 415 U.S. 304 (1974)

34

Delaware v Van Arsdall,

9

Duncan v Louisana, 391 U.S. 147

12,42

Duren v Missouri, 439 U.S. 351 (1979)

41

English v Romariowiski, 602 F.3d 714 (6th Cir.2010)

32

Entsmingter v Iowa, 386 U.S. 748 (1967)

65

Flanagan v United States, 465 U.S. 259 (1984)

5,15

VII

Giglio v United States, 405 U.S. 150 (1972)

37

Glasser v United States, 315 U.5. 60

12

Griffin v Illinois, 351 U.S. 12

13

Griffin v Illinois, 351 U.S. 958 (reh. den)

13

Harrington v Richter, 562 U.5. B6

10,37

Higgins v Renico

362 F.Supp.2d 904 (E.D. Mich.2005)

34

Holmes v South Carolina, 547 U.S. 319 (2006)

40

Jackson v Herring, 42 F.3d 1350 (11th Cir.1995)

27

Jemison v Foltz, 672 F.Supp. 1002 (E.D. Mich.1997)

27

Jones v Estelle, 622 F.2d 127

11

Kimmelman v Morrison, 447 U.S. 365 (1986)

25,26,31

Kuhlman v Wilson, 477 U.5. 436 (1984)

35

Kyles v Whitley, 514 U.S. 419 (1995)

36

Loutts v Loutts, 298 Mich App. 21

16

Martin v Rose, 744 F.2d 1245 (6th Cir.1984)

37

Martinez v C0A of Cal, 52B U.S. 152 (2000)

43,44

Mason v Arizona, 504 F.2d 1345

37

Massiah v United States, 377 U.S. 201 (1964)

33,35

Mata v Egelar, 383 F.Supp. 1091 (E.D. Mich.1974)

45

McCray v New York, 461 U.S. 961 (1983)

41

McMeans v Brgano, 228 F.3d 674 (6th Cir.2000)

44

McQueen v Swenson, 498 F.3d 207

12

Mirroui v Parrett, 574 F.2d 411

11

Mitchell v Manson, (on Remand) 325 F.3d 732 (6th Cir.2003)

29,30

Napue v Illinois, 360 U.S. 264 (1959)

38

Nealy v Cubana, 764 F.2d 1173 (CA.5th 19B9)

27

Neil v Biggers, 409 U.S. 1BB

11

UIII

Ohio v Roberts, 44B U.S. 56

10

Park v North Carolina, 397 U.S. 790

29

People v Anglin, 111 Mich App. 268

15

People v Burwick, 450 Mich 281 (1995)

5

People v Charles 0. Williams, 3B6 Mich 565

5

People v Cheeks, 216 Mich App. 470 (1995)

24

People v Cogborn, 2011 Mich App. Lexis 1730

24

Davis, 343 Mich 348 (1955)

21

People v DeGraffanreid, 173 NliJ.2d 317 (1969)

17

People v Fisher, 119 Mich App. 445 (1982)

27

People v

People v

Ginther, 390 Mich 436

25,46 ■

People v Kelly, 231 Mich App. 627 (1998)

22

People v Lawton, 196 Mich App. 341 (1992)

19

People v Lester, 232 Mich App. 627 (1998)

36

People v Lowenstein, 118 Mich App. 475

6

People v McGuffey, 251 Mich App. 155 (2002)

5

People v Meyers, (on Remand) 124 Mich App. 148

15

People v Powell, 119 Mich App. 47 (1982)

21

People v Reed, 449 Mich 375 (1995)

45

People v Smith, 463 Mich 199 (2000)

42

People v Stafford, 434 Mich 125

15

People v Theadorow, 10 Mich App. 209 (1968)

39

People v Wilson, 397 Mich 16 (1976)

5,20

Pennsylvania v Finley, 481 U.S. 551 (1987)

45

Perez v Wainwright, 640 F.2d 596 (CA. 5th 1981)

45

Plumlee n Mastro, 512 F.3d 1205

13

Pyle v Kansas, 317 U.S. 213 (1 942)

38

IX

Ramonez v Berghuis, 490 F.3d 482 (6th Cir.2007)

32

Rieth v Keeler, 230 Mich App. 346

15

Rotgery v Gillespie County Texas, 554 U.S. 191 (2008)

29

Robinson v 5tegall, 343 F.Supp. 626 (E.D. Mich.2004)

19

Smith v Anderson, 6B9 F.2d 59 (6th Cir.1982)

26

Smith v Illinois, 390 U.S. 1 29,1 31 (1 96B)

34

Spalding v Spalding, 355 Mich 382 (1952)

20

Stewart v Wolfenburger, 468 F.3d 338 (6th Cir.2006)

31,32,40

Strauder v West Virginia, 100 U.S. 303 (1B80)

41

Strickland V Washington, 466 U.S. 668 (1984)

6,7,10,15,25,26,27,37

Thiel v Southern Pacific Co • * 328 U.S. 217 (1946)

41

Thomas v Lockhart, 73B F.2d 30B

9

Thomas v Wyrick, 535 F.2d 407

11 ,12

Town v Smith, 395 F.3d 251 (2005)

32

Ungar v Sarafite, 376 U.S. 575

6

United 5tates v DeCoster, 199 U.S. 99 (1977)

29

United States v Gonzalez, 548 U.S. 140

16

United States v Morrison, 449 U.S. 361 (1981)

40,65

United States v Powell, 847 F.3d 760 (6th Cir.Feb 6,2017)

16

United States v Russell, 411 U.S. 423 (1973)

21

United States v stephenson, 887 F.2d 57

9

U.S. v Cronic, 446 U.S. 64B (1984)

27,28,39

Wade v White, 368 F.Supp.2d 695 (E.D. Mich.2005)

38

Wallace v Bell

24

387 F.Supp.2d 728 (E.D. Mich.2005)

Wallace v Kern, 392 F.Supp. 834

13

Washington v Smith, 219 F.3d 620 (CA.7th 2000)

27

Washington v Hofbaur, 228 F.3d 689

38

X

•

Wainuiright v Sykes, 433 U.5. 72 (1977)

29

bJiggins v Smith, 52B U.S. 510 (2003)

26,27

LJiley v Sawder, 647 F.2d 642 (CA.6t 1991)

27

Wolff v McDonnell, 44B U.5. 539 (1974)

45

Workmen v Tate, 957 F.2d 1339 (CA.6th 1992)

31

UNITED STATES CONSTITUTIONAL AMENDMENTS

4th Amendment
5th Amendment
6th Amendment

1,5,12,20,22,24,33,40,46,
1,4,5,6,7,8,10,11,12,1 3,16,1 B,25,28,29,30,32,33,34,36,37,38,40,42,46

14th Amendment

1,4,5,7,9,12,13,18,20,22,24,28,33,40,41,42,46

MICHIGAN CONSTITUTIONS

Mich Const, of 1963, Art 1

§ 14

42

Mich Const, of 1963, Art 1

§ 17

22,38

Mich Const, of 1963, Art 1

§ 20

1 ,12,15,40

MICHIGAN COMPLIED LAWS

MCL 767.40

21

MCL 780.985(3)

37

MICHIGAN COURT RULES

MCR 6.425

44

XI

MICHIGAN RULES OF PROFESSIONAL CONDUCT

MRPC 1.3

28

MRPC 1.7

28

ABA STANDARDS

Code of Professional responsibilities EC 5-1

XII

46

CITATIONS OF OPINIONS AND ORDERS IN CASE
The original judgement of the conviction of the Petitioner in the Michigan Court of
Appeals was reported and is attached hereto as Appendix"1".
The original judgement of conviction of Petitioner in the Michigan Supreme Court was
affirmed and is attached hereto as Appendix"2".
The original judgement of conviction of the Petitioner in the Western District Of
Michigan was reported and is attached hereto as Appendix"3".
The original judgement of conviction of Petitioner in the United States Court of
Appeals, for the Sixth Circuit was reported and is attached hereto as to Appendix"4".
JURISDICTIONAL STATEMENT
The judgement of the United States Court of Appeals for the 6th Circuit was entered
on December 4,2019. The jurisdiction of this Court is invoked under 28 U.S.C.§ 1204(1).
CONSTITUTIONAL PROVISION AND STATUE INVOLVED
1. THE FOURTH AMENDMENT OF THE UNITED STATES PROVIDES:
"The right of the people to be secure in their person,
houses, papers, and efforts, against unreasonable
searchs and seizures, shall not be voilated."
2. THE FIFTH AMENDMENT OF THE UNITED STATES PROVIDES:
"No person shall be • • • • deprived of life, liberty, or
property,, without due process of law."
3. THE SIXTH AMENDMENT OF THE UNITED STATES PROVIDES:
"In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial by an impartial
jury of the State and District wherein the crime shall
have been committed • • • be informed of the nature and
cause of the accusation; to be comforted with the
witnesses against him; to have compulsory process for
obtaining witness in his favor, and to have the
assistance of counsel for defense."
4. THE FOURTEENTH AMENDMENT OF THE UNITED STATES:
"All persons born or naturalized in United States... No
state shall make or enforce any law which shall abrige
the privilege or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property without due process of law; nor
deny person within its jurisdiction, the equal
protection of laws."

1

5. THE STATUTE UNDER WHICH PETITIONER SOUGHT HABEAS
CORPUS RELIEF WAS 26 U.S.C.§ 2254 WHICH STATES IN
PERTINENT PART: § 2254 STATE CUSTODY: Remedies in
Federal Courts.
An application for a writ of habeas carpus on behalf of
a person in custody pursuant to the judgment of a State
Court shall not be granted with respect to any claim
that was adjudicated on the merits in State Court
proceedings unless the adjudication of the claim;
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law, as determined by the Supreme
Court of the United States; or resulted in a decision
that was based on an unreasonable determination of the
facts in light of the evidence presented in the state
court proceeding.
STATEMENT OF THE CASE

On 1-18-13, Petitioner was arrested, along with co-defendant (sister), who was later
exonerated, due to false statement from prosecution key witness.
On 1-31-13, Petitioners preliminary examination was held, and adjourned.
On 4-25-13. Petitioner was scheduled preliminary examination, but the court adjourned
the hearing.
On 5-23-13, Petitioners preliminary examination resumed, but adjourned once again.
On 5-28-13, Petitioner was bonded over on Second Degree Murder, Attempted Murder;
Possession of Firearm, Felony Possession; Felony Firearm, and Domestic 3rd.
On 8-6-13, Petitioner charges was Amended, and the courts bonded petitioner back over
on the charges of;

Open-Murder,

Attempted Murder;

Possession of Firearm;

Felony

Possession, Felony Firearm, and Domestic 3rd.
On 8-14-13, an hearing was held, due to Petitioners charges being amended, and
counsel was not prepared for trial, and counsel had surgery scheduled, trial was
adjourned.
On 11-18-13, Petitioner's counsel Richard Sammis, was excused.
On 11-25-13, Petitioner was assigned new counsel, Ernest White.

2

On 12-13-13, an hearing was held.
On 12-23-13, a Motion to Suppress hearing was held, on petitioners behalf, and
denied.
On i-e-14, Petitioner's Status Conference was held.
On 1-14-14, Petitioner’s Trial began.
On 1-17-14, Petitioner was found guilty by jury, on the charges of Second Degree
Murder; Attempted Murder; Possession of Firearm; Felony Firearm; Felony Possession,
Domestic 3rd, and Supplement 4th.
On 2-24-14, Petitioner was sentenced to 600 to 1200 months.
On 11-21-14, Petitioner's Motion to Disqualify/Recuse judge, was denied.
On 6-11-T5, Petitioner’s Motion for New Trial/Requesting hearing under People v
Ginther, was held.
On 6-25-15, Petitioner's Motion for New Trial/Requesting hearing under People v
Ginther.
On 6-19-15, Petitioner filed standard - 4 Pro Pre Brief, with Michigan Court of
Appeals.
On 12-17-15, Petitioner Amended/Consolidated Standard

4 Pro Pre Brief, in the

Michigan Court of Appeals.
On 3-22-16, Petitioner’s conviction was affirmed, in the Michigan Court of Appeals.
On 1-31-2017, Petitioner's Application for Leave to Appeal was denied, in the
Michigan Supreme Court.
On 4-30-19, Petitioner's Habeas Corpus was denied, in the United States District
Court.
gn 12-4-19, Petitioner's Certificate of Appealability was denied, in the United
States Court of Appeals, for the Sixth Circuit.
On 1-15-20, Petitioner's Petition for Rehearing En Banc, was granted extension of
time.

3

On 5-6-20, Petitioner’s Petition far rehearing En Banc was denied, in the United
States Court of Appeals, for the Sixth Circuit.

EXISTENCE OF JURISDICTION BEL'OW
Petitioner was convicted by way of a verdict of guilty, in the County of Berrien, St.
Ooseph, Michigan 49085, 2nd Cudicial Circuit Court, for charges of, 2nd Degree Murder,
MCL 750.317; Assault with Intent to Commit Murder, MCL 750.83; Felon in Possession of a
Firearm, MCL 750.224f; Carrying a Concealed Weapon, MCL 750.227; Possession of Firearm,
MCL 750.227b; Domestic Assault 3rd, MCL 750.61(4); and Fourth - Offense Habitual, MCL
769.12.A section 2254 Petition was filed in the United States District Court for the
Eastern District of Michigan and subsequently denied. A timely appeal to the United
States Court of Appeals, for Sixth Circuit was filed and subsequently denied as well.
REASONS FOR GRANTING WRIT
1. The 6th Circuit panel opinion erred affirming the District Court denial of
Petitioner's Sixth & Fourteenth Amendment rights guaranteed under the U.S. Const., as
well as Mich.Const. Art. 1 § 20, where trial court abused its discretion, by failing to
hear Petitioners Motion for Substitution of Appellate Counsel claim. Petitioner and his
appellant counsel relationship coliasped, and by the refusal to hear, or substitute New
Counsel,

by Trial Court's, violates Petitioner's U.S. Const. Amend. VI Right to

Effective Assistance of Counsel. The factors the U.S. Court of Appeals consider's are
the same as those the court applies to determine if the District Court erred in denying
a Motion to Substitute Counsel,(Brown v Craven, 424 F.2d 1166, 17D) therefore, this
court should exercise its supervisor powers over the lower courts.
2. The 6th Circuit panel's opinion erred affirming the District Court's denied of
Petitioner's Sixth Amendment right guaranteed under the U.S. Const • * where trial court
refused to adjourn his case once new counsel was obtained. Petitioner's attack the
trial court's denied of that motion, claiming it was abuse of discretion and violation

4

of standards set down in People v Charles 0. Williams, 386 Mich 565,577-578. The
Michigan Supreme Court in Williams found:
"Thus, the desire of the trial courts to expedite court
dockets is not a sufficient reason to deny an otherwise
proper request for a continuance."
1. Petitioner asserted his constitutional right.
2. Petitioner had legitimate reason for asserting his
right.
Also, the right to counsel of one's choice is personal to the accused and is
protected in dependent of the courts concerns regarding the fairness of the proceeding
(Flanagan v United States, 465 U.5. 259, 268).
Therefore, this Court should exercise its supervisor powers over the lower courts.
3. The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth and Fourteenth Amendment rights guaranteed under the U.S. Const, to
a fair trial and due process, where the trial court abused its discretion when
endorsing a late witness and denying Petitioner and adjournment to prepare an effective
cross-examination. On the first day of trial, the prosecutor moved to endorse (Hearsay)
witness,

Arthur Cones

(Cail House Witness),

defense counsel objected,

requesting

adjournment, thus preserving the issue for review. People v HcGuffey, 251 Mich App.
155, 165-166(2002). Here, although the prosecutor knew of Mr.Cones prior to trial, he
failed to inform the defense counsel of him as a witness until the first day of trial.
Arthur Cones testified on the fourth day of trial, Petitioner notes late additions to
the list are permissible upon leave of the court and for good cause shown. People v
Wilson,

397 Mich 76(1976).

However,

in the case good cause was not shown,

and

Petitioner was extremely prejudiced. The prosecution must advise the defense of all
known witnesses and who among them the prosecution will not call and prepare a defense.
People v Burwick, 450 Mich 281(1995).
4. The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Fourth and Fourteenth rights guaranteed under the U.S. Const • » where trial

5

court

abused

its

discretion

when

denying

Petitioner's

Motion

for

Disqualification/Recusal, (People v Lowenstein, 118 Mich App. 475, 482),. because its
decision is in direct conflict with Ungar v Saraftte, 376 U.S. 575., 588, " the test is
not whether or not actual bias exists, but also whether there was such a likelihood of
bias or an appearance of bias that the judge personally believes himself to be unable
to hold the balance between vindicating the interests of the court and the interests of
the

accused,

unprejudiced,

"Further,
unbiased,

even
and

though

a

judge personally

impartial;

he

should

believes

nevertheless

himself

to

certify

be
his

disqualification where there are circumstances Of such a nature to cause doubt as to
his partiality, bias or prejudice." 118 Mich App. at 4B2.
SUPREME COURT NOTED SUCH SITUATION INCLUDE;
1. Where the judge has a pecuniary interest in the outcome;
2. Where the judge has been the subject of personal abuse or criticism from the party
before him; (3) Where the judge is enmeshed in other matters involving the complaining
party;

or

(4)

Where the judge might have prejudged the case because of having

previously acted as an accuser, fact-finder, or initial decision maker,(Crampton v
Dept, of State, 395 Mich, at 351). Therefore, this Court should exercise its supervisor
powers over the lower courts.
5) The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth Amendment right guaranteed under the U.S. Const • » to effective
assistance of trial counsel, where counsel failed to investigate several aspects of
Petitioner's case, and instead, relied on Government's goad faith EFFORTS, which is
contrary to Stickland v Washington, and its progeny, claim.
The courts relies on a two prong test, to determine whether a counsel's omissions and
errors have deprived a criminal defendant of his/her right to counsel under U.S. Const.
Amend.

VI,(1).

A

defendant

must

demonstrate

that

counsel's

performance

was

so

deficient, that counsel was not functioning as the counsel guaranteed by the Sixth

6

Amendment,(2) requires the defendant to show that counsel's errors were so serious as
to deprive the defendant of a trial.
The above basic pretrial investigations was denied by Petitioners trial counsel,
which in fact affected and prejudiced Petitioner before and during trial and Petitioner
was denied the effective assistance of counsel, our constitution provides for the
accuse to have an fair trial. Petitioner meets both prongs thats set forth in Stickland
v Washington. Therefore, this Court should exercise its supervisor power over the lower
courts.
6. The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth and Fourteenth rights guaranteed under the U.S. Constitution to
Effective Assistance of Counsel, where Petitioner's trial counsel denied Petitioner a
Meaningful Opportunity to Present a Complete Defense. Petitioner trial counsel did not
properly argue an complete defense for Petitioner, nor present evidence, and witnesses
that was known to him prior to trial to support the defense. The defense attorney is
duty bound to protect the legal rights of a client to the best of his ability. Foremost
to the Defense Attorney is the responsibility to communicate with the client and let
the client be the ultimate decision maker even though the defense attorney will be far
more experienced on matters of the law and strategy.
Petitioner's counsel intentionally misrepresented Petitioner. Defense counsel did not
present an complete defense due to his friendship with his work associate that
Petitioner wrote complaints on and excused from this case at hand, an month and half
before trial.

Also Petitioners trial counsel has personal relationship/friendship

afterS or more decades of practicing law in the same venue. Petitioner filed complaint
on defense counsel a month before trial as well.
Petitioner did not have fair opportunity to present a defense due to trial counsel
not consulting with Petitioner about any possible defense theory he was bringing forth
when decided to go forth with a defense he did not have any evidence to support the

7

theory and ignoring all possible leads Petitioner requested including calling the only
self-defense witness that can contradict prosecutions witness,

(Crystal McKenzie).

Therefore, this court should exercise its supervisor power over the lower courts.
6.(A) The 6th Circuit panel's opinion erred affirming the District Courts denial of
Petitioner's Sixth amend. Rights guaranteed under the U.S. Constitution to Effective
Assistance of Trial Counsel, where counsel refused to conduct a meaningful consultation
wit Petitioner. Petitioner's trial counsel in fact did not consult with Petitioner and
totally avoided coming into reasonable grounds with Petitioner. As the record reflects
Petitioner's complained in many letters and the matters was addressed on the record
about Trial counsel's behavior and not visiting Petitioner. Trial counselor was totally
ineffective to Petitioner if he did not visit Petitioner when ordered by trial court
judge how did the Petitioner and counsel consult/agree/discuss, trial strategy or any
proper defense?" Petitioner has demonstrated the deficiency that has resulted in
prejudiced to Petitioner and that in the absence of error the result of the proceedings
would have been different, Strickland. 466 U.S. at 694, and fundamentally unfair and
unreliable. Lockhart, 113 S.Ct. at 842-83. Therefore, this Court should exercise its
supervisor power over the lower courts.
6(B) The 6th Circuit panel's opinion erred reaffirming the District Courts denial of
Petitioner's Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance of Counsel, where counsel refused to conduct a meaningful investigation towit witnesses criminal history which was material to the case. It is the responsibility
of the trial lawyer to obtain every document that would fall under the jurisdiction's
discovery provision's. Counsel should examine the relevant discovery statutes and
determine

the

discoverability

of

written/recorded

statements,

dispositions

of

witnesses, all prior testimony of witnesses, all police memorandum notes and farms
prepared by the police and all evidence and reports relating to the case trial counsel
did not review nor comprehend all materials to the case. Counsel fail to use/ignored

8

disclosure tools available which asserts a valid claim of ineffective assistance of
counsel. Therefore, this Court should exercise its supervisor powers over the lower
courts.
6(C) The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioners Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance of trial counsel, where counsel failed to investigate known and potential
key witness (Sail-House Witness). Petitioner's trial counsel fell short of what a
reasonably competent attorney would have by failing to review investigative file of
prosecuting attorney or investigate seriousness of mental problems from which the
witnesses suffered (Crystal McKenzie & Braxton Britt), which makes then incompetant.
Petitioner's trial counsel did not interview victim to asses her version of facts, nor
Crystal McKenzie (key-witness for prosecution), nor interview first responding police
officer's that made contact with Petitioner and took his first statement nor make
contact with Petitioner's only self-defense witness (Ashley Davis), where Petitioner
and his mother gave the attorney her name and contact. (Thomas v Lockhart, 73B F.2d at
308). The representation afforded to Petitioner by his trial counsel was inadequate.
Therefore, this Court should exercise its supervisor powers over the lower courts.
6(D) The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance of Trial Counsel, where counsel was inform in cross examining prosecution
witnesses. A Petitioner's right to cross examine with the opportunity to impeach an
adverse witness a prosecution witness as well as a hostile defense witness (United
States v Stephenson, BB7 F.2d 57,60), "is the main and essential purpose" of the
confrontation clause (Delaware v Van Arsdall)♦ Therefore, this Court should exercise
its supervisor powers over the lower courts.
6(E) The 6th Circuit panel's opinion erred affirming the District Court denial of
Petitioners Sixth Amendment rlght6 guaranteed under the U.S. Constitution to Effective

9

Assistance of trial Counsel, where counsel failed to object to Cones (Gail-House
Witness) testimony6. The prosecution did not meet second prong governed by Ohio v
Roberts, 448 U.S. 56. when endorsing late witness the day of trial, therefore counsel
should have objected and properly impeached witness and/or take proper measurements to
satisfy the confrontation clause. Therefore, this Court should exercise its supervisor
powers over the lower courts.
6(F) The 6th Circuit panel's opinion erred affirming the District Courts denial of
Petitioners Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance of trial counsel, where counsel failed to hire an Investigator or Expert
witness for his defense. The United States Supreme Court has held: (1) "Counsel has a
duty to make reasonable investigations or to make a reasonable decision that makes
particular investigations unnecessary." Strickland v Washington, 466 U.S. 668,691; and
(2) "criminal cases will arise where the only reasonable and available defense strategy
requires consultation with experts or introduction of expert evidence, whether pretrial
at trial or both." Harrington v Richter, 562 U.S. B6, 106; Petitioners trial counsel
disregarded standard 3(A) counsel shall conduct an independent investigation of the
charges and offense as promptly as practicable; Dune 11,2015 (Ginther Hearing), pg.24
lines B-10, Petitioner trial counsel admitted he took the prosecution word, event off
police

reports,

and off the previous

counsels

notes.

Petitioners

trial

counsel

disregarded standard 3(B) "when appropriate counsel shall request funds to retain an
investigator to assist with the client's defense. Reasonable requests must be founded
as required by law. Petitioners trial counsel failed to comply with this standard as
well. Therefore, this Court should exercise its supervisor powers over the lower
courts.
6(G) The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance

of trial Counsel,

where counsel failed to object to the prosecutors

10

admittance af evidence not of record. Petitioner's trial counsel's failure to object to
remarks the prosecution made in closing argument,

"that a knife was planted in

victim/deceased pocket, (G.H. pg.66, line 17, pg.67, lines 5), rendered Petitioner's
trial fundamentally unfair, Jones v Estelle, 622 F.2d at 127. Therefore, the Court
should exercise its supervisor powers over the lower courts.
7. The 6th Circuit panel's opinion erred affirming the District Court's denial of
Petitioner's Sixth Amendment right guaranteed under the U.S. Constitution to Effective
Assistance of trial Counsel, where counsel of record failed to present a defense and
properly investigate and interview potential witnesses for his defense. The United
States Supreme Court has specifically recognized that there are few rights more
fundamental than that of an accused to present witnesses in his own defense, Chambers v
Mississippi,

410

U.S.

284(1573).

Counsel admits he did not review material nor

interview witnesses, for either party and attorney can not present a defense if he did
not conduct the proper investigation that's guaranteed by our constitution. To be
prepared for trial counsel should have put efforts in to consult with Petitioner about
the

strategy/defense

interview

witnesses

criminal

history

(impeachment-purposes)

investigate mental health records (witness) visit crime scene hire expert witness hire
private investigator check the prosecution's file for immunity (witnesses) prepare
Petitioner for testimony interview first responding officers subpoena Petitioner's only
self-defense witness contradict officer's

statements

impeach witnesses for prior

inconsistent statement's and visit Petitioner when ordered by the courts. Whether trial
counsel's actions were sufficient to meet the standard of effective assistance is a
mixed determination of law and facts that requires the application of legal principles
to historical facts of this case. Cuyler v Sullivan

446 U.S. at 342; of Brewer v

Williams, 43D U.S. 387, 397; Neil v Biggers, 409 U.S. 198,193 n3. The failure to
interview prosecution's witnesses is a Violation of Counsel's Constitutional Duty to
render effective assistance. Morrow v Parratt, 574 F.2d 411; Thomas v Idyrick, 535 F.2d

11

407,413; HeQueen v Swenson, 498 F.2d 207,216, Therefore, this Court shall exercise its
supervisor powers over the lower courts.
B. The 6th Circuit panel's opinion erred affirming the District Courts denial of
Petitioners Fifth, Sixth, and Fourteenth Amendment rights guaranteed under the U.S.
Constitution, where he was denied a fair cross-section of jury selection at trial,
thereby denying him due process and equal protection of the law. The 6th Circuit
panel's decision was not contrary to Batson v Kentucky, 476 U.S. 79. In Duncan v
Louisiana, 391 U.S. at 147-158, the court emphasized that a Petitioner's right to be
tried by a jury of his peers is designed "to prevent oppression by the Government."
Id., at 155,156-157. For a jury to perform its intended function as a check on official
power, it must be a body drawn from the community Jjd at 156; Glasser v United States,
315

U.S.

60,86-88,

by

compromising

the

representative

quality

of

the

jury

discriminatory selection procedures make "juries ready weapons for officials to oppress
those

individuals

who

by

chance

are

numbered

among

unpopular

or

inarticulate

minorities. "Akins v Texas, supra, at 40B (Murphy 3. dissenting). Racial discrimination
in selection of jurors harms not only the accused whose life or liberty they are
summoned to try grievant told trial counsel that he was not satisfied with jury
selection because they was not jurors of his peers nor of color and counsel told
Petitioner that its the best its going to get due to the late starting of Petitioners
trial, where Petitioner refused to get dress. Therefore, this Court should exercise its
supervisor powers over the lower courts.
9. The 6th Circuit panel's opinioned erred affirming the District Courts denial of
Petitioners

Sixth

and

Fourteenth

Amendment

rights

guaranteed

under

the

U.S.

Constitution to effective assistance of counsel on appeal as of right judicial review
under Mich Const. Art. 1_, § 2_0 requires that an indigent shall have the right to have
an appeal as a matter of right; and in the courts of record when a trial court so
orders,

to have such reasonable assistance as many be necessary to perfect and

12

prosecute an appeal an indigent's right to a free transcript on appeal is considered to
be more basic than his right to counsel on appeal. Griffin v Illinois, 351 U.S.
12,reh.den. 351 U.S. 956, which established the right of an indigent to be furnished
with a transcript at public expense on appeal was decided seven years before Gideon v
Wainwright, 372 U.S. 335. Petitionee was sent trial and sentencing transcripts from
trial court judge due to the constant denial from appellant counsel and Petitioner
filing grievance/complaint through attorney grievance commission and trial courts which
was not enough material to establish errors and misconducts at Petitioners pre-trial
hearings and motions. Petitioner appeared in court over 10 times with two different
attorney's which Petitioner's appellate counsel neglected to familiarize himself with
this case at hand and failed to order the per-tcinl transcripts and motions where
passible

rights

and

misconducts

where

violated

and

could

have

been

raised

on

Petitioners direct appeal. After many motions in trial court Petitioner was GRANTED
production of records/transcripts April 20,2016, 16 months after Petitioners direct
appeal brief was filed by appellant counsel in Michigan Court of Appeals. Therefore,
this Court should exercise its powers over the lower courts.
ARGUMENT AMPLIFYING REASON FOR WRIT
I. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S
CONVICTION ON THE BASIS THAT PETITIONER'S SIXTH
FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER U.S.
CONSTITUTION, AS WELL AS MICH. CONST. OF ART.1 § 20,
WHERE NDT VIOLATED WHERE TRIAL COURT ABUSED ITS
DISCRETION BY FAILING TO HEAR PETITIONERS MOTION FOR
SUBSTITUTION OF APPELLANT COUNSEL.
Trial Court failed to assure that Petitioner afforded his guaranteed right to appeal
where Petitioner asserted that his 6th Amend. Right to Counsel was being violated where
a conflict with appointed appellant counsel Daniel 0. Rust, was so great as to render
equivalent to "no representation at all." (Plumlee v Mastro, 512 F.3d at 1205-1207);
see (Wallace v Kern, 392 F.Supp 834).
On September 6,2014, Petitioner sent a letter to appellant counsel Daniel 0. Rust

13

expressing his dissatisfaction with his performance and requesting him to recuse
himself after recent visit.
On

September

22,2014,

Petitioner

filed

complaint

through

attorney

grievance

commission, (see. Appendix-5)
On October 28,2014, attorney grievance commission replied back. (see. Appendix-6)
On November 13,2014, Petitioner forwarded the grievance and the attorney grievance
response attached with a copy of letters to and from attorney Daniel 0. Rust, to
Berrien County trial court judge Bruce and chief judge Nelson, also Petitioner was
requesting substitution.
On November 26,2014, Petitioner and retained counsel Shawn P. Smith P-51431, was
schedule for Motion to Disqualification judge Bruce from all further proceedings and
Motion for New trial requesting hearing under People v Ginther. Attorney Shawn P.
Smith,

explained how he

agree/arranged to retrieve transcripts through appellant

counsel but he stop communicating with attorney Shawn P. Smith, and Petitioner as well.
(Transcript hearing) November 26,2014, pg.11 line 4-13 and pg.13 lines 13-18)
There was more talks about the letters and complaints which in not on record and
trial judge stated he did not receive the mail yet. Petitioners Motion to disqualify
was denied and Petitioners Motion for New Trial was adjourned.
Appellant Counsel Daniel 3.Rust, filed Petitioners District Appeal Brief with the
Michigan Court of Appeals not waiting for the conclusion of the Ginther hearing on
December 3,2014, and sent Petitioner a copy of the brief attached with letter stating
that Petitioner had an B4 day deadline to file an pro pre standard 4 brief to raise
issues Petitioner thought was a violations.
Petitioner was scheduled for an telephone conference on Oanuary 22,2015, with the
trial court judge Bruce, who states he called this hearing an "MY MOTION", during this
hearing the judge never once mentioned anything concerning substitution more so
transcripts Petitioner mentioned to the courts that to the best of his knowledge he

14

thought appellant counsel should have wait until after conclusion of Petitioners Motion
for New Trial requesting hearing under People v Ginther to file a Direct Appeal Brief
but the judge did not correct attorney's mistake.
On September 21,2015, Petitioner filed another Motion with the courts and they did
not acknowledge/entertain the Motion at all.
Thus, this Court should review/address this issue not only for the trial courts lack
of inquiry into Petitioner's complaint's of his appellant attorney Daniel 0. Rust, in
order for the trial court to have assured whether the trial court abused its discretion
in denying Petitioner's Constitutional Rights to Counsel of choice. Trial court judge
Bruce knew Petitioner RETAINED attorney Shawn P. Smith, 4 days/eve of trial but the
courts denied adjournment for Petitioners counsel properly prepare.
Appellant counsel Daniel 3. Rust, knew through via. text from attorney Shawn P.
Smith,

and communication with Petitioner and family member's that Petitioner was

schedule for Evidentiary Hearing that would be conducted by attorney Shawn P. Smith, as
Petitioner's legal counsel who also planned to represent Petitioner on appeal after the
conclusion of the hearing so Petitioner could perfect his appeal with complete records.
The United States Supreme Court in Strickland v Washington, 466 U.S. 668 (1984), and
both the United States and Michigan constitution guaranteed criminal defendant's the
right

to

the

effective

assistance

of

counsel.

U.S.

Const * *

Amend.

\1I‘,

Mich.

Const.1963,Art.I,§20.
A defendant is entitled to have his assigned lawyer replaced upon a showing of
adequate cause provided that the substitution of counsel will not unreasonaoly disrupt
the judicial process. People v Meyers, on remand, 124 Mich App. 148,165 and People v
Anglin, 111 Mich App. 268,275.
In the instant case the trial court failed to address Petitioner's request/motion for
substitution of counsel and where a lower court fails to exercise its discretion when
called to do so in turn is an abuse of discretion. People v Stafford, 434 Mich 125,134

15

n4; Lewtts 298 Mich App. 21,24; and Riath v Kssler, 23Q Mich App.346,348.
The United 5t.at.es Court, uf Ahji-hIh for the 6 th Cl ecu It fr^-^ii’.ly

b' ?«,. '•! r.hi« In hi i

in favor of the Petitioner in United States v Pauiell, 847 F.3d 760(6th Cir. Feburarv
6,2017.
Tn the case at issue there was a complete break down in communications with appellant
counsel Mr.Rust,

as he vigorously attempted to convince Petitioner there were no

appealable issues. On February 22,2016, Petitioner filed another grievance on appellate
attorney Daniel 0. Rust, for filing Petitioners Reconsideration Motion in an untimely
manner.
Petitioner claims that the trial court abused its discretion by denying not only the
review/address
denying

Petitioner's

request/motion

far

substitute

Petitioner his right to choice of counsel.

counsel

but

ultimately

[The need for fairness far

prosecution nor demands of the courts calendar would have been disturbed]. In fact the
need of fairness was deprived of Petitioner.
The United States Court of Appeals denial of Petitioners Certificate of Appealability
and In Forma Pauperis was not contrary to clearly established Federal law. The decision
was based on an unreasonable determination of facts in light of the evidence presented.
Thus, this court should GRANT the appropriate relief in accordance with 28 U.S.C §
2254(d)(1) and (2).
H. THE COURT OF APPEALS ERRED IN AFFIRMING PETITIONER'S
CONVICTION ON THE BASIS THAT PETITIONER'S SIXTH
AMENDMENT RIGHT GUARANTEED UNDER U.S. CONST, WHERE NOT
VIOLATED WHEN TRIAL COURT REFUSED TO AD30URN HIS CASE
ONCE NEW COUNSEL WAS OBTAINED.
Petitioner had a Sixth Amendment right to counsel. The United States Supreme Court
held in United States v Gonzalez, 548 U.S. 140,144; that the 6th Amendment right to
counsel guarantee's s defendant who will represent him. The Supreme Court goes to say
the erroneous deprivation of a criminal defendant's counsel of choice is a structural
error which entitles the defendant a New Trial.

16

Tha 6th Amendment right to counaal of choice commands not that a tKal ha fair hut
rather that u particular guarantaa of fairnaaa bo provided and that the accused be
defended by the ;nu!i*el h« hullaveM tu he thaw bait fit. Petitioner's right to counsel
was violated when he was not allowed tu have an adjournment by tha trial court so ha
may have his Newly Retained Counsel Shawn P. Smith(P.51431) defend his case.
Furthermore, no showing of effuctivene^s of auhetltute counsel or prejudice is
required to make the violation complete. The ruling by the trial court ra-% lltml In a
"Structural Defect". Such a defect can never be viewed as harmless error as it efforts
tiie entire proceedings there errors requires a New Trial becauaa it la tha only way to
correct such errors. Thera ara certain rights ao essential to concept of Due Process
that no lawyer can waive them for a defendant such aa the right to jury trial and tight
to counsel where ceunael Shawn P. Saith(P.51431), wee Petitioner’s counsel of choice.
People v Degraffan Reid, 173 NU2d 317(1969).
The second factor for good cuuea for adjourneent ia that the Petitioner had a
legitiaate reason for asserting the right where counsel needed time for preparatisn.
The United States Suprsee Court held. Avery v Alabama, 30B U.S. 444,446(1940), that
tha guarantee af counsel cannot

be satisfied by mere formal appointment. This is

exactly what the trial esurt did when on November 19.2013, it told the Petitiener'a to
removed ceunael Sammis, that he had 24

hours te get a new lawyer for the Petitioner

what makes tha matter mare sever is the fact that instead af tha trial court appointing
new counsel for the Petitioner. The Petitioner has also overcome any presumption of
negligence as this would fall under thaw 3rd factor.
This case was adjourned ance by Petitioner on the date of November 19,2013. Tha court
excused court appointed counsel Richard Sammia, and new counsel Ernest White, was
appointed on November 25,2013.
The court and prosecution was caused for many of the adjournments and continuance
that prejudiced Petitioner:

17

1. January 31,2013, Adjourned Court
2. April 25,2013, Adjourned Court
3. May 23,2013, Adjourned Court
4. August 6,2013, Bindover Amended Charges Court
5. August 14,2013, Adjourned Court
6. November 25,2013, Adjourned Petitioner Substitution
of counsel.
The court must weigh who deserves

an

adjournment and how much time spent an

adjournments and what is just on the p^art of a Petitioner seeking justicce.
In Flanagan v United States, 465 U.S. 259(19B4), Justice O’Conner explanned that:
"The asserted right to counsel of ones choice is like
for example the 6th Amendment right to represent ones
self. Retaining reversal for violation of such a right
does not require a showing of prejudice to the defense
since the defendant's free choice independent of
concerns for the abjective fairness of the proceeding.
Similarly post conviction review cancededly effective to
that extent that the Petitioners asserted right is like
the 6th Amendment rights violated when trial court
denies counsel request to be made to obtain reversal in
these circumstance because prejudice tat he defense is
presumed."
Wherefore, Petitioner respectfully request this Court GRANT New Trial and/or any
other relief deemed appropriate for this issue. The United States Court of Appeals
affirming the District Court decision in this case in denying Petitioner's Appeal of
Right is not contrary to clearly established Federal law as determined by the Supreme
Court of the United States and resulted in a decision that was base on an unreasonable
determination of the fates in light of the evidence presented. Thus, this court should
GRANT the apparpriate relief in accordance wit 2B U.S.C. §(d)(1) and (2).
III.
THE COURT OF
APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
SIXTH AND FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER
THE U.S. CONSTITUTION TO A FAIR TRIAL AND DUE PROCESS
WHERE NOT VIOLATED WHERE TRIAL COURT ABUSED ITS
DISCRETION WHEN ENDORSING A LATE WITNESS AND DENYING
PETITIONER AN ADJOURNMENT TO PREPARE AN EFFECTIVE CROSS

10

EAXMINATIDN.
February 6,2015, Assistance Prosecuting Attorney Auron 3. Mead (P.49413), filed and
response brief to appellant's direct appeal brief. The prosecution has attempted to use
unfair tactics against Petitioner at pp.7-8. First where the prosecution starts out in
there response using a "RED HEARING" attempt at diverting where the removal was based
on pre-examining conflicts between the two. In which Petitioner's removed counsel (A
BIASED PARTY) choose to elect replacement counsel from the very firm that he himself
works for. In which I gives the appearance of impropriety. (Ginther Hearing 3une
11,2015, pg.150 line 19 and pg.51 line 7).
Even though the trial court knew inaction would violate Petitioner's 6th Amendment
right to conflict free counsel they still refused to act. Robinson v Stegall, 343
F.Supp.2d 626,634(E.D. Mich,2004).
Prejudice can also be presumed where a Petitioner can demonstrate that a conflict of
■ interest exists and actual or constructive denial of counsel can never be found as
harmless error. Arizona v Fullmate, 499 U.S. 279,310-11(1991). The court from the
actual issue when interjecting in their response at pg.7 defendant has failed to show
that the trial court abused its discretion in allowing the prosecution to present the
testimony of Arthur 3ones,

when in fact the issue is of surprise and lack of

preparation in which violated Petitioner's right to effective cross-examination where
the trial court denied a continuance.
Secondly where the prosecution cites People v Lawton, 196 Mich App. 341(1992), in
support of the denial to

adjourn; where the prosecution agrees Petitioner meets prongs

1 and 3 but relies on prongs 2 and 4 in persuading the courts that an adjournment was
properly denied. The second prong is a legitimate reason for asserting the right; and
the fourth prong deals with requests of pervious adjournments in which Petitioner must
show prejudice from the denial.
The prosecution is correct in that two(2) adjournments were granted prior to trial

19

19

one being the courts Amending Petitioner's charges and bonded Petitioner back to
original charges of "OPEN MURDER" on the date of August 6,2013, due to change of charge
trial court judge Bruce gave Petitioner's counsel the option to adjourn because counsel
was prepared for argument for 2nd Degree Murder charge and also defense counsel had an
schedule surgery and the second one was the courts appointed new counsel.
Petitioner's granted adjournment's cannot nor have been in association to the denial
of adjournment at issue herein or has there been any implication that Petitioner abused
a request for adjournment nor has any prejudice to the prosecution been claimed or
ruled.
The Petitioner's position is that the defense was prepared to cross-examine all other
witnesses known along with maintaining the complexity of all other aspects of this
Murder case. Ultimately the trial court and prosecution expected trial counsel to
continue defending a Murder trial and simultaneously interview and investigate on
surprise witnesses where counsel conducting cross-examinations on other witnesses as
well as preparing for states witnesses testimony for the following day. The purpose for
such

a

requested

adjournment

was

so

that

counsel

could

focus

on

the

new

witnesses/evidence in order to articulate an effective examination of Bones statement
and contemplate an adjournment to an already prepared complex defense.
This argument must fall where the mere fact that the trial court made the witnesses
available or the court Apprised Counsel of the substance of testimony, has no bearing
on counsel's ability to formulate an effective plan of defense for his client. As such
for the latter reasoning the trial court abused its discretion in denying adjournment.
In which prejudiced Petitioner and counsel's work load stop him from even having time
for an interview.
In People v Wilson, 397 Mich 76(1976), the Michigan Supreme Court held that the trial
court erred because it granted late endorsement. If as the prosecution represented to
the trial court in their motion to endorse the witnesses as a surprise to the

20

prosecution then the Petitioner would have been equally surprised.
The case at issue herein is analogous as on the day of trial the prosecution
requested

the

endorsement

of

the

States

witness

Arthur

Jones.

The

prosecution

represented to the court that Jones was not known to the state until thE detective in
charge notified the state that four days prior to trial. Mr.Jones was a potential
witness she further states/presented to the judiciary that she did not receive a
"Formal Report" from the detective until that following Monday the day prior to trial
and did not notify either the trial courts or defense counsel of the witness until (1)
one hour prior to trial.
Not only did the prosecution know of Jones statement the day prior to the endorsement
the day of trial but the police knew of this witness (4) four days prior to informing
the prosecution which establishes that witness was known by the state (6) days prior to
Petitioner's trial leaving no doubt that the States argument is fruitless and without
merit.
The States misconduct is unexcusable the activity of the governmental agents of the
Berrien County Police as well as the prosecution office in order to reach conviction
violated "The fundamental fairness shocking to the universal sense of justice",
mandated by the Due Process Clause of the Fifth and Fourteenth Amendment. United States
v Russell, 411 U.S. 423,431-32(1973).
It is well settled that the propriety of granting trial day endorsement of witnesses
rest in the sound discretion of the

trial court. MCL 767.40; MSA 28,980; People v

Davis, 343 Mich 348,351 (1955); Blue supra.Id 25 Mich at 678. A motion for a continue
also addresses itself to trial court discretion, Davis supra, Blue, supra. • • •
The United States Court of Appeals also affirms Petitioner's conviction on this claim
as well. The Petitioner believes he is entitled to a New Trial because his fundamental
Due Process Rights were violated when he was refused a continuance in order to prepare
cross-examination of the states last minute witness, see People v Powell, 119 Mich App.

21

47(1982).
Wherefore,

due to trial court's endorsement of late witness while denying a

continuance was prejudicial to Petitioner's constitutional rights to a fair trial.
Petitioner believes he is entitled to relief and prays this Honorable Court GRANT such
requested relief.
VI.
THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
FOURTH AND FOURTEENTH AMENDMENT RIGHTS AND MICHIGAN
CONSTITUTION OF 1963, ART I § 17, WHERE NOT VIOLATED
WHEN THE TRIAL COURT ABUSED ITS DISCRETION BY DENYING
PETITIONER'S MOTION FOR DISQUALIFICATION/RECUSAL.
Petitioner has been denied after many requests for a copy of all pretrial hearings
especially the dates of May 23,2013; December 13,2013; and April 1,2015, in order to
articulate an effective argument by being accurate in referring to the records.
On March 22,2016, the Michigan Court of Appeals ruled:
"Although
defendant
provides
law
regarding
disqualification the issue is abandoned. In his
argument defendant does not articulate any grounds for
why the trial court was disqualified from presiding
over further proceedings. He has left it to this court
to discover the factual basis and rationalize the basis
for the claim. see People v Kelly, 231 Mich
App.627,640-41; 58B NW2d 480(1998)(An appellant may not
merely announce his position and leave it to this court
to discover and rationalize the basis for his
claims
Which is baffling where this same court ruled within this same opinion as follow:
"Once a transcript has been provided to appellate
counsel the defendant is not entitled to additional
copies of the transcripts."
This issue can be viewed in one of three ways either the lower court bear
responsibility by leading Petitioner into an ambush; or appellant counsel was at fault
for refusing to afford Petitioner transcripts; or both share equal responsibility for
wasting valuable judicial resources through their Inactions. In any event Petitioner
clearly affords this court evidence that he was diligent and the impediment was not of
his accord.

22

Petitioner asserts he was prejudiced by the trial court and thereby denied his State
and Federal Constitutional Rights to Due Process and a Fair Trial.
The lower courts have made sure that records from May 7,2013; May 23,2013; December
13,2013 and April 1,2015, has been erased from the record which are most important to
this claim. Petitioner’s Public Access Case Event Report shows on the date of April
5,2013, the State/Court filed Motion for Certificate Pursuant to Uniform Act to Secure
Attendance of Witness from without state signed by prosecutor Patricia Ceresa, and
filed with the Berrien County Court order requiring witness to appear order directing
issuance of summons and waiver of hearing placed in court file per pros, office
certificate of judge signed by judge Bruce and filed with the court, (see. Appendix-7)
On May 20,2013, an Petition to

hold material witness to bail order to hold material

witness to bail after hearing. Attachment to bring material witness before court was
ordered, (see. Appendix-!-!)
On May 23,2013, Petitioner's preliminary examination was resumed and states witness
Charles Lee Marcus Davis Or. took the stand and Petitioner's examination was adjourned
again. The court has purposely failed to fulfill the production of this record.
The lower court has mislead the Michigan Court of Appeals, Michigan Supreme Court,
United States District Court and also United States Court of Appeals by hiding records
from Petitioner and the courts.
During the preliminary examination on May 23,2013, the court came to the terms that
the material witness was not credible due to his Miranda Rights being violated and the
judge became very impartial and bias presumes. Budge Bruce, also was Petitioner's co­
defendant's judge as well pertaining to this case at hand.
Budge Bruce, involvement in this case at hand has altered and prejudiced Petitioner's
case by his allowance of prosecutions (Key/Eyewitness) inconsistence, incompetent, and
inadmissible statement's under oath knowing (Key/Eyewitness) Crystal McKenzie, was

23
I

under the influence when she admitted lying to detective's about the event that
transpired due to her being high. (Prelim. Exam. 3anuary 31,2013, Trans,pg.79 lines 1314). Petitioner was denied his Due Process and Equal Protected Rights.
Petitioner has shown (3) three different reasons to disqualify his trial judge, who
has personal knowledge of disputed evidentiary facts concerning the proceeding due to
him being the controlling official of the court proceedings.
Judicial bias is a structural error that can never be found harmless. Wallace v Bell,
3B7

F.Supp.2d

728,738(E.D.

Mich.

2005)(citing

Chapman

v

Califorina,

386

U.S.

18,23,n8(1967).
In general terms the question of disqualification of judge is one which concerns both
the fact and the appearance of justice. Every effect should be made to insure that both
parties maintain their fundamental to impartial judge, see U.S. Const ,• f Amendment's V &
XIV; Mich. Const. 1963. Art. 1_ § V7.
In Crampton v Department of State, 395 Mich 347,351(1973) held:
"The judge may be prejudice or biased with the case or
a party because of prior involvement as fact finder or
decision maker. Morrissey v Brewer, 408 U.S. 471(1972);
Goldberg v Kelly. 397 U.S. 254,271(1970).
In Clemmons v Wolfe, 377 F.3d 322(3rd Cir.2004), that court states:
"Alleged facts sufficient if given support to the
challenge of a bent mind that may prevent or impede the
impartiality of judgment, "see Berger v U.S • » ________
255 U.S.
22,33-34(1921); see also People v Cogborn, 2011 Mich
App. Lexis 1730 * 2-4."(People v Cheeks, 216 Mich
App.470,480(1996).
If this court concurs with United States Court of Appeals and lower courts and feel
any issue not referencing the record cannot be appropriately reviewed the Petitioner
respectfully request the Honorable Court GRANT relief in the form of a REMAND to the
lower court with an order to provide Petitioner with the record/transcripts and further
issue

a

continuance

in

order

Petitioner

24

may

perfect

a

factual/legal

basis

to

appropriately rationalize the basis for his claims. If not the following argument
pursues.
Wherefore,

Petitioner requests

this

Court GRANT appropriate relief it

deems

necessary.
V. THE COURT APPEALS ERRED IN AFFIRMING PETITIONER'S
CONVICTION ON THE BASIS THAT PETITIONER'S SIXTH
AMENDMENT RIGHT GUARANTEED UNDER THE UNITED STATES
CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL,
WHERE NOT VIOLATED, WHERE COUNSEL FAILED TO INVESTIGATE
SEVERAL ASPECTS OF THIS CASE AND INSTEAD RELIED ON THE
GOVERNMENT'S GOOD FAITH EFFORTS WHICH IS CONTRARY TO
STRICKLAND V WASHINGTON, AND ITS PROGENY.
To be effective defense counsel must investigate prepare and timely assert all
substantial defenses. Kimmelman v Morrison, 447 U.S. 365(1986); Seaslev v U.5 •t 491F. 2d
687(6th Clr.1974).
Petitioner has made this claim on Dune 6,2015, at his motion for New Trial requesting
hearing under People v Ginther, that his trial counsel failed in these aspects outlined
as follows where Petitioners counsel:
A. neglected to investigate nor argue self-defense as
deceased was a Professional Mixed Martial Arts (MMA)
fighter; (pg.40 line 16 and pg.23 lines 2)
B. Neglected to request a Psychiatric evaluation of
petitioner; (pg.76 lines 12 and pg.79 lines 22)
C. Failed to make crucial objections; (pg.3B lines 1
and pg.39 lines 23)
D. Relayed to the jury in opening statements that
Petitioner has a conviction for Delivery of Cocaine;
(pg.33 lines 3 and pg.35 lines 3)
E. Showed disinterest in the case; (pg.227 lines 2-3)
F. Failed
Petitioner.

to

investigate

and

communicate

with

G. Expressed contempt for Petitioner that he acted as a
second prosecutor as shown in his statement that he
thinks the defendants questions are stupid and that he
wants the jury to see the case how he wants them to see
it and if he did not like it he could represent
himself, (pg.240 lines 12-17)

25

H. Trial counsel told Petitioner he was guilty, (pg.137
lines 17-21)
I. trial counsel informed Petitioner he was not allowed
character witnesses, (pg.137 lines 3-16)
3. Refused to call witnesses whom would/could
corroborate Petitioner's self-defense strategy, (pg.176
lines 17-21)
K. Lied to Petitioner informing him that his sister
(eyewitness) would not testify, (pg.238 lines 23-25)
L. States under oath, "THAT NO ONE IN THE WORLD WOULD
EVER PLEASE MR.DAVIS (PETITIONER) ABOUT ANYTHING,
(pg.134 lines 20-23)
M. Neglected to hire expert
investigator, (pg.23 lines 3-4)

witness

and

private

N. Relied on police report and note's from previous
attorney's, (pg.24 lines 8-10)
O. Neglected interviewing witnesses for defense nor
prosecution, (pg.22 lines 22, and pg.23 lines 2)
P. Failed to impeach state's witnesses, (pg.50 lines
12-24).
Weighed under the Strickland standard any of the above if not individually then
cumulatively weights on the trial counsel's poor performance amounting to ineffective
assistance of counsel believed to establish counsel was constitutionally deficient
prejudicing Petitioner.
The United States Supreme Court has disapproved of the very conduct that a defense
attorney's apparent willingness to accept the State's version of facts calls into
question the adequacy of his representation. Strickland, supra, at 688; and Kimmelman v
Morrison, 477 U.S. 365,385(1986).
In Strickland,supra, the court explicitly found that trial counsel has a "DUTY TO
INVESTIGATE",

and that to discharge that "counsel has a duty to make reasonable

investigations or to make a reasonable investigations or to make a reasonable decision
that makes particular investigations unnecessary, "I.d • i at 691; see also Wiggins v

26

Smith, 528 U.5. 510,512(2002). Defense Counsel's failure to investigate his options and
make a reasonable choice between them foreclose any "strategic decision" that might
exist. Dackson v Herring. 42 F.3d 1350(11th Cir.1995).
Here Petitioner satisfied the first prang of the Strickland analysis i.e * I counsel's
decision not to investigate the states case "Fall below an objective standard of
reasonableness,and his actions and omissions were not the result of "reasonable
professional judgment," I.d., at 687-88, as to Strickland's prejudice prong, clearly
conducted even a mininum investigation counsel would have ultimately led to meritorious
grounds for counsel's ineffectiveness thus, it is reasonable probability of a different
outcome, I.d., at 691-92.
The likelihood of a different result only need be reasonable Petitioner "need not
prove prejudice by a preponderance of the evidence" Jemison v Foltz. 672 F.Supp.
1Q02,1007(E.D. Mich 1997).

Here Petitioner must show that there is a reasonable

probability that hut for trial counsel's unprofessional errors he would have been found
not guilty at trial.
Defense counsel must engage in a reasonable amount of pretrial investigation and at a
minimum interview potential witnesses • • • make an independent investigation of the facts
and circumstances of the case. Nealy v Cubans, 764 F.2d 1173,1177(CA 5th, 1985). which
counsel has failed.

"Failure to investigate can certainly constitute ineffective

assistance." lilashington v Smith, 219 F.3d 620,630(Cfl. 7th 2000).
Counsel must act as an advocate for the client and subject the prosecution's case to
the crucible of meaningful adversarial testing. United States v Cronis, 466 U.5.
648,656-57(1984); People v Fisher, 119 Mich App. 445(1982).
A criminal defendant has a constitutional right to expect that his attorney will at
all times support him never desert him and will perform with reasonable competence and
diligence. Uiley v Sowder, 647 F.2d 642,651 (CA. 6th 1981) cert.den 454 U.S. 1091 (1981).
A lawyer should act with commitment and dedication to the interest of the client and

27

with zeal in advocacy upon the clients behalf. Michigan Rules of Professional Conduct
1.3.
The lawyers

own interest should not be permitted to have adverse effect on

representation of a client. I.d Rule 1.7 commentary.
The general remedy for a violation for the 6th Amendment right to effective
assistance of counsel at trial is a New Trial. United States v Morrison, 449 U.S.
361,364-65(1981).
Wherefore, Petitioner requests this court GRANT appropriate relief it deem necessary.
VI. THE COURT OF APPEALS ERRED AFFIRMING PETITIONER'S
CONVICTION ON THE BASIS THAT PETITIONER'S SIXTH AND
FOURTEENTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE OF COUNSEL WHERE
NOT VIOLATED WHERE COUNSEL DENIED PETITIONER A
MEANINGFUL OPPORTUNITY TO PRESENT A COMPLETE DEFENSE.
The United States Court in United States v Cronic, 466 U.S. 648(1984), said that the
right to be heard would be in most cases of little avail if it did not comprehend the
right to be heard by counsel. Eve n intelligent and educated laymen have minimal or
sometimes no skills in the science of law. If charged with a crime he is incapable
generally of determining for himself that legal strategies if any to formulate where he
is unfamiliar with the rules of evidence and left without the aid of counsel he may be
put on trial and convicted upon incompetent evidence or inadmissible evidence.
Petitioner lacks the skills and knowledge to adequately prepare his own defense even
though he may have a prefect one. He requires the guiding hand of competent counsel
within every step in the proceedings against him. Without it thought he may. not be
guilty he faces the danger of conviction because he does not know how to establish his
innocence.
However the 6th Amendment right guarantee's more than tins appointment of competent
counsel by its term one has the fight to assistance of counsel for his defense.
Assistance begins with appointment of counsel but does not end there in some cases the
performance of counsel may be so inadequate that in effect no assistance of counsel was

28

provided. Clearly in such cases as in this case the Petitioner's 6th Amendment,right to
counsel was’ denied as articulated in Issue's VI. A, though VI. G • I Infra, see United
States v Decoster, 199 U.S. 99 (1977); Wainwright v Sykes, 433 U.S. 72,99(1977); Parker
v Worth Carolina

397 U.S. 790,796-99.

Thus, the Const, guarantee's a criminal defendant a meaningful opportunity to present
a complete defense. Crane v Kentucky, 476 U.S. 683,690(1986); California v Trombetta,
467 U.S. 479(1984).
Wherefore,

Petitioner requests this court GRANTS appropriate relief it deems

necessary.
VI. (A) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL
WHERE NOT VIOLATED WHERE COUNSEL REFUSED TO CONDUCT A
MEANING CONSULTATION WITH PETITIONER.
The 6th Amendment institutes the right to consult with counsel during critical
pretrial stages. The pretrial period of the proceedings for purposes of the 6th
Amendment encompasses counsel's duty to investigate the case prior to trial. Mitchell v
Manson, (on remand) 325 F.3d 732(6th Cir.2003); see also Rothgery v Gillespie County
Texas, 554 U.S. 191(2008).
During this pretrial period Petitioners trial attorney only came to se him twice once
on December 5,2013, for no more than 10 minutes (G.H. Dune 11,2015

pg.119 lines 25,

pg.120 lines 2) and then on December 18,2013, for no mare than 15 minutes. (G.H. Dune
11,2015, pg.123 lines 12-20).
Petitioners trial counsel refusal to consult with him prior to trial no more than
(2)two occassions was so out landish that 6 days before trial (Oanuary 8,2D14, Status
Conference), the trial judge ORDERED trial counsel to consult with Petitioner before
trial. (G.H. Dune 11,2015, pg.80 lines 10-21, pg.123 lines 12-20). After the order from
judge Bruce,

Petitioners trial counsel still, neglected to visit and consult with

Petitioner concerning his case during these ORDERED visits.

29

On Hanuary 14,2014, Petitioners trial day , Petitioner refused to get dress for trial
because his trial counsel Ernest White fail to comply with judge Bruce's ORDER to visit
Petitioner. (Trial Trans, pg.3 line 17, pg.4 lines 9).
Furthermore, the trial court judge Bruce admits that Petitioners trial counsel Ernest
White, did not spend enough time preparing with Petitioner. (G.H. Dune 11,2015, pg.57
lines 17-22, pg.67 lines 5-5), this willingness to spend time with Petitioner denied
him ample time to present a meaningful defense that rises to the level of deficiency.
Oudge Bruce's ruling in and of itself supports Petitioners claim.
The court in Holmes v South Carolina, 547 U.S. 319(2006), stated that a defendant has
a right to have a meaningful opportunity to present a complete defense. Quoting Crane v
Kentucky, 476 U.S. 683,690(1986).
Therefore, Petitioners claim is contrary to clear established State and Federal law.
Thus, this court should GRANT the appropriate relief in accordance with 28 U.S.C. §
2254(d)(1) and (2).
VI. (B) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE TO TRIAL COUNSEL
WHERE NOT VIOLATED WHERE COUNSEL REFUSED TO CONDUCT A
MEANINGFUL INVESTIGATION TO WIT WITNESSES CRIMINAL
HISTORY WHICH WAS MATERIAL TO THE CASE.
Petitioners counsel at trial refused to do any background investigation into criminal
records of the prosecution witnesses for impeachment purpose.

(G.H. Buna 11,2015,

pg.4B, lines 1-17, pg.75, lines 14-20, pg.139, lines 5-16, pg.23, lines 10-15).
The duty to investigate derives from counsels basic function which is to make one
adversarial testing process work in the particular case. Bryant v Scott

28 F,3d

1411,1419(1994). The pretrial constitutes a critical period of the proceedings for
purposes of the 6th Amendment • » which encompasses counsels constitutional duty to
investigate the case prior to trial. Mitchell v Mason, 325 F.3d 732(6th Cir.2003)(on
remand).

30

Also Petitioners counsel during trial refused to interview witnesses in the case
(G.H. Dune 11,2015, pg.22 lines22-26, pg.23 lines 19-20, pg.25 lines 20-27, pg.137
lines 3-16, pg.202 lines 16-22, pg.226 lines 10-11, pg.227 lines 3 and pg«8 lines 2-5)
after trial court judge Bruce, denied adjournment and ordered counsel to interview
witness before witness take the stand, (see Trial trans. January 14.2014, pg.10 lines
25, pg.11 lines 19). In which counsels duty includes but not limited to the obligation
to interview witnesses who may have information concerning his client's guilt or
innocence. Kimmellman v Morrison, 477 U.S. 365,386(1986).
Petitioner trial counsel went so far as to refuse to call witness Ashley Davis, whom
witness the events that petitioner stands accused of wham been VINDICATED in this case
as well due to prosecution's (only) Key/Eyewitness false statements which was critical
to defense. Counsel failures to investigate an IMPORTANT witness was objectively
unreasonable and constitutes negligence not trial strategy. Stewart v Wolfenbarger, 468
F.3d 33B(6th Cir.2006).
Even more egregious was the fact trial counsel lied to Petitioner stating Ashley
Davis, refused to testify (G.H. Dune 11,2015, pg.176 lines 19-21). This was contested
by Ashley Davis, own testimony (G.H. Dune 11,2015, pg.238 lines 23-25).
Trial counsel further neglected to investigate/interview promising witnesses (Travis
Hagood, Timothy Lewis, and Derry Blackwell), that could have contradicted prosecution
witness Jones (Jail House Witness) testimony. (G.H. Dune 11,2015, pg.34, pg.135 lines
16-25).
When defense fails to investigate promising witnesses counsels actions or inactions
constitutes negligence not trial strategy. Workman v Tate, 957 F.2d 1339,1345(6th
Cir.1992).
The 6th Circuit in Beasley v U.S. 491 F.2d 687(1974), held that the failure to
produce and present witnesses

favorable to the defense is not the exercise of

reasonable trial strategy. It is a breach of an attorney's basic duty to prepare

31

investigate and present all substantial defense and not rely on the state’s good faith
efforts in preparing his case.
Therefore, Petitioners claim in contrary to clear established State and Federal law.
Thus this court should GRANT the appropriate relief in accordance with 28 U.S.C.§
2254(d)(1) and (2).
VI(C).THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE
U.S. CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL
COUNSEL WAS NOT VIOLATED WHERE COUNSEL FAILED TO
INVESTIGATE KNOWN AND POTENTIAL KEY WITNESSES.
Trial counsel refused to interview prosecution witness Cones (Call House Witness),
the state produce the day of Petitioners trial. (G.H. Cune 11,2015, pg,39 lines 9-14,
pg.50 line 12-16, pg.105 lines 20-25).
The 6th Circuit ruled in Towns v Smith, 395 F.3d 251(2005), that the failure to make
contact with or investigate potentially important witnesses made known to counsel prior
to trial deemed ineffective, see English v Romanowiski, 602 F.3d 714(6th Cir.2010).
Where failure to investigate witness prior to trial despite making claim in opening
statements that witness would testify at trial deem counsel ineffective. Counsel deemed
ineffective for failing to investigate known and potentially important witnesses. Avery
v

Prelusnik,

548 F.3d 424(6th Cir.2008);

Cir.2007); and Stewart v

Ramonez v

Berghuis,

490

F.3d 482(6th

Wolfengager, 468 F.3d 338(6th Cir.2006).

If trial counsel would have interviewed key witnesses he would have found that Cones
trial testimony was perjurious (G.H. Cune 11,2015, pg.135 lines 5, pg.5 lines 16-23),
Also trial counsel would have discovered that prosecution witness Arthur Cones (Cail
House Witness) received favorable treatment concerning his pending charges In exchange
for his testimony which Arthur Cones, prejudiced himself when stating he received
Unarmed Robbery for his testimony but received Larceny from the Person, and further
counsel would have discoverad/uncovered the fact that the prosecution used another jail
house witness on Petitioners sistBr/co-defendant Ashley Davis, (G.H. Cune 11,2015,

32

pg.247 lines 8-15), in which would have been fruitful

in the overall preparation for

crass examination thats mare likely than not lead the trial court deem Clones testimony
inadmissible where it is evident the State planted witnesses in order to elicit
incriminating statement from Petitioner once Petitioner was formally charged with the
offense violating Petitioners 5th, 6th, and 14th Amendment rights as Petitioner has a
right not to self incriminate and the right to communicate with the state through
counsel affording Due Process, see Massiah v United States, 377 U.S. 201(1964), where
the U.S. Supreme Court held that the government had impaired Petitioners 6th Amendment
right where informant had engaged in conversation with Petitioner and concluded that if
by

association

by

general

conversation

or

both

the

informant

had

developed

a

relationship of trust and confidence with Petitioner such that Petitioner revealed
incriminating information this constituted interference with the right to assistance of
counsel under 6th Amendment.
The present case involves incriminating statements allegedly made by accused to an
undercover government informant while in custody after indictment. This subject matter
applies under the 6th Amendment, as it pertains to post indictment communication
between the accused and agents of the government. Massiah, supra • • • • •
Wherefore, establishing Clones was planted for the purpose of seeking privileged
information

his

entire

testimony

shall

be

stricken

from

the

record

as

it

is

inadmissible for the reasoning outlined above. For this reason it is Petitioners belief
he is entitled to a New Trial.
Thus, this Court should GRANT the appropriate relief in accordance with 28 U.S.C. §
2254(d)(1) and (2).
VI. (D) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL
WAS NOT DENIED WHERE COUNSEL WAS INFORM IN CROSS
EXAMINING PROSECUTION WITNESSES.
Defense counsel at trial did not effectively cross examine the prosecution witnesses

33

as established through testimonial evidence.

(G.H. dune 11,2015,, pg.139 lines 21,

pg.140 lines 8).
The court held in Smith v Illinois, 390 U.S. 129,131(1968); and Brookhart v Oanis,
384 U.S. 1,3(1966), that to the accused to demonstrate a Constitutional Violation.
There are however circumstance that are so likely to prejudice the accused that the
cost of litigating their effect in a particular case is unjustified. The most obvious
of course is the complete denial of counsel at critical stage of his trial. No specific
showing

of

prejudice

was

required

Davis

v

Alaska,

415

U.S.

304(1974).

Because

Petitioner had been denied that right to effective cross examination which would be a
constitutional error of no amount of showing of prejudice would cure it. I.d. at 415

U.S. 31B.
Attorney Shawn P. Smith, represented Petitioner during the Ginther hearing of dune
11,2015, pointed out the fallowing facts to the court in support stating as follows:
"That he barely cross examined the witness and when I
say barely you read the record you where here your
Honor I mean the prosecution would go on for 20 to 30
pages of direct and he would ask a couple questions and
say thats it. Some he didn’t ask a question."
The court held in Higgins v Renico, 362. F.Supp.Hd 904(E.D. Mich.2005),that trial
counsel was constitutionally ineffective for failing to cross examine prosecutions Key
Witness because he was unprepared. Failure to subject the states case to meaningful
adversarial

testing on the

ground of lack of preparation was not a reasonable

strategical decision.
As Petitioner brief through ISSUES VI. B. and VI. C • f that trial counsel did not
prepare for the prosecutions Key Witnesses.
Petitioner respectfully requests that this Honorable Court GRANT appropriate relief
deems fit and just.
VI. (E) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONERS CONVICTION ON THE BASIS THAT PETITIONER’S
SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL

34

WAS NOT VIOLATED WHERE COUNSEL FAILED TO OBBECT TO
BONES TESTIMONY.
The trial counsel failed to object to Arthur Bones (Bail House Witness) testimony in
violation of Petitioners 6th Amendment right to effective assistance of counsel.
The court held in Massiah v United States, 377 U.S. 201, at 206(1964), that once a
defendants 6th Amendment right to counsel has attached he is denied that right when
Federal agents deliberately elicit incriminating statements from him in absence of his
lawyer

Kuhlman v

Wilson,

477 U.S.

436,457(1984).

The concern in Massiah and a

subsequent line of cases "is secret interrogation by investigatory techniques that are
the equivalent of direct police interrogation." I.d. at 459.
A Petitioner does not make out a violation of that right by showing that an informant
either through prior arrangement or voluntarily reported his incriminating statements
to the police and their informant took soma, action beyond merely listening chat was
deliberate to elicit incriminating remarks. I.d.
Where the police had Petitioner moved from several locations in weeks times within
the county jail being from dorm 1N to 1C then from 1C to

TK, then from 1K to 1M then

back to 1N within a weeks time which now the jail house informant Arthur Bones appears
in 1N.
In addition as proof the record reveals that on or about April 6,2013, the police
paired a Ms.Brook Vickery, a jail house snitch to record Petitioners sister Ashley
Davis, while she was in the same cell (County Bail) facing the same charges as
Petitioner in which was prior to the police planting Bones and Petitioner together in
cell/dorm 1N. Banuary 8,2014, 6 days before Petitioners trial showing a pattern that
the police and the informant (Bones) had a meeting of minds (police corruption) with
intent to elicit incriminating statements from Petitioner (G.H. Bune 11,2015, pg.247
lines 8-15). Also noting that Ms.Vickery's husband Bason Vickery, is and has been known
informant in the Berrien County area in several unrelated cases for the police.
Further Bones received favorable treatment in his case in exchange for his testimony.

35

(flppendix-9) Petitioner also had witnesses that would have corroborated the fact that
Hones was personally seeking out information showing signs that he was acting as an
agent of the state (see Appendix-10). Where on occasions Hones was witnessed entering
inmate's cell/rooms without permission or knowledge in order to seek out information
relating to Petitioners case. (G.H. Hune 11,2015., pg.135 lines 5 and pg.136 lines 1623).
Finally any argument that the prosecution was unaware of this late endorsed witness
does not excuse prejudice nor the states misconduct. Any government entity that is
directly related to the charge and conviction of Petitioner is considered as the arm of
prosecution, see Kyles v Whitley, 514 U.S. 419,427(1995)(noting that the individual
prosecutor has a duty to learn of any favorable evidence known to others acting on the
government behalf in the case including the police"), see also People v Lester, 232
Mich App. 626(1990).
Thus, this Court should GRANT the appropriate relief in accordance with 28 U.S.C. §
2254(d)(1) and (2).
VI. (F) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S CONVICTION ON THE BASIS THAT PETITIONER'S
SIXTH
AMENDMENT
RIGHT
GUARANTEED
UNDER
U.S.
CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL
WHERE COUNSEL FAILED TO HIRE AN INVESTIGATOR OR EXPERT
WITNESS FOR HIS DEFENSE.
Petitioner's trial counsel performance fell below the norm constituting ineffective
assistance where counsel refused to hire an private investigator or expert witness in a
Murder trial to contradict the state's investigator's or expert witness (G.H. Hune
11,2015, pg.227 lines 7-15, pg.24 lines 8). Petitioners trial counsel relied on the
state's "Good Faith" efforts.
IN RE: REGULATIONS GOVERNING A SYS. FOR APPOINTMENT OF
COUNSEL, 2016 Mich.Lexis 1072 STATES:

STANDARD 3 "INVESTIGATION AND EXPERTS"

36

The United States Supreme Court has held: (1) ’’Counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes particular investigations
unnecessary. "Strickland v Washington, 466 U.S. 66B.691(1984); and (2)” Criminal case
will

arise

where

the

only

reasonable

and

available

defense

strategy

requires

consultation with expert or introduction of expert evidence whether pretrial at trial
or both. Harrington v Richter, 562 U.S. 86,106(2011). The MIDC Act Authorizes" minimum
standards for the local delivery of indigent criminal defense services -providing
effective assistance of counsel • • • MCL 780.985(3).
Petitioners 6th Amendment right to effective assistance of counsel through Due
Process was violated where it requires the appointment of an investigator or expense
for an investigator or expert for indigent defendant, Mason v Arizona,

504 F.2d

1 345,1352-53(9th Cir.1994).
Wherefore, Petitioner request this Court GRANT relief in the form of a New Trial with
stipulation that an investigator be appointed and expert witness.
VI.(G) THE COURT OF APPEALS ERRED IN AFFIRMING
PETITIONER'S SIXTH AMENDMENT RIGHT GUARANTEED UNDER THE
U.S. CONSTITUTION TO EFFECTIVE ASSISTANCE OF TRIAL
COUNSEL WAS NOT VIOLATED WHERE COUNSEL FAILED TO 0B3ECT
TO THE PROSECUTION ADMITTANCE OF EVIDENCE NOT OF
RECORD.
The prosecution argued in closing argument that a knife had been planted on the
deceased when there was no evidence in support or to suggest such event occurred. (G.H.
June 11,2015, pg.15 lines 14-17).
It is a fundamental principle of the the American Criminal Oustice System that
deliberate deception of a court and jurors by the presentation of known false evidence
is incompatible with (The) rudimentary demands of justice. Giglio v United States, 405
U.S. 150,153(1972). When the government obtains a criminal conviction and deprives an
individual of his life or liberty on the basis of evidence that it knows to be false it
subverts its fundamental obligation embodied in the Due Process Clauses of the Fifth

37

and Fourteenth Amendments to provide every criminal defendant wit a fair and impartial
trial.
Similarly it has held that the government is obligated to current any evidence
introduced at trial that it knows to be false, regardless of whether or not the
evidence was solicited by it. see Napue v Illinois, 360 U.S. 264,269(1959); Alcorta v
Texas, 355 U.S. 28(1957); Pyle v Kansas, 317 U.S. 213(1942). These duties provide
fundamental protections that are vital to the successful operation of an adversarial
system of criminal justice; they embody the state's obligation not to obtain the
accused conviction at all costs but rather to do justice by furthering the truth
finding function of the court and jury.
In the instant case, trial counsel failed to object to the prosecutions argument
constituting
Hofbauer,

ineffective

220

F.3d

assistance of counsel.

6B9(6th

Cir.2000),

that

The

failure

court held in Washington v
to

object

to

prosecutorial

misconduct during closing arguments constituted ineffective assistance of counsel and
further went on to say that "Counsel's Silence was base an INCOHERENCE and IGNORANCE of
the LAW, rather then reasonable TRIAL STRATEGY, see also Wade v White, 368 F.Supp.2d
695(E,D. Hich.2005). Petitioner believes as held in Washington, supra, that it should
also held here that there was a STRONG likelihood that the IMPROPER STATEMENTS
PREJUDICED him.
Wherefore, Petitioner requests this Court GRANT appropriate relief it deem necessary.
frfrf- THE COURT OF APPEALS ERRED AFFIRMING PETITIONER'S
CONVICTION ON THE BASIS THAT PETITIONER'S SIXTH
AMENDMENT RIGHT GUARANTEED UNDER THE U.S. CONSTITUTION
TO EFFECTIVE ASSISTANCE OF TRIAL COUNSEL WAS NOT DENIED
WHERE COUNSEL OF RECORD FAILED TO PRESENT A DEFENSE AND
PROPERLY INVESTIGATE AND INTERVIEW ANY POTENTIAL
WITNESSES FOR HIS DEFENSE.
In every criminal prosecution the accused shall have the right to have the assistance
of counsel for his/her defense. Mich. Const.1963, Art.1

§ 17 as well as being a

guarantee under the federal constitutions Sixth Amendment U.S. Const. Amend. VI.

30

This guarantee includes the opportunity to present facts and mitigation of the offense
the Petitioner is charge with People v Theodorow, 10 Mich ftpp. 209(1968). It has long
been recognized that this right also includes the right to the effective assistance of
counsel, Cuyler v Sullivan, 446 U.S. 344(1980).
It is the position of the Petitioner that within his appeal of right as well as his
standard

4 briefs, he has shown not only counsel's deficient performance but the

prejudice that was result. The Michigan Court of Appeals on the other hand made a
decision based upon an incomplete record; and a misapprehension of the facts and
applicable law. This contention is made due to the court's unpublished opinion and the
reliance of only on of the three prongs for determining the presumption of prejudice
analysis enunciated in United States v Cronic, 466 U.S. 648(1984).
There are three types of cases that warrant Cronic's presumption of prejudice
analysis, these being: First a complete denial of counsel in which the accused is
denied the presence of counsel at a critical stage, see Bell, supra, 122 S.Ct. at 1851;
second is when counsel" entirely fails to subject the prosecutions case to meaningful
adverserial testimony." see Cronic, supra, 466 U.S. at 659; and thirdly is when counsel
is placed in circumstances in which competent counsel very likely could not render
assistance. Cronic, supra, at 459.
The Michigan Court of Appeals considered the third prong of the analysis of Cronic,
without giving credence to the position of the Petitioner that the reviewing court
could not properly give a factual basis for their opinion as they were not in
possession of the the complete record at the time of review. This point is argued in
ISSUE IV supra, as Petitioner was denied assistance by appellate counsel as well as
trial counsel obtaining the necessary documentation for review.
Without the benefit of counsel willing to properly investigate Petitioner's account
of what transpired on the night of alleged offense Petitioner could not have possibly
presented the

defense necessary to obtain a verdict that did not result in a

39

miscarriage of justice.

If counsel would have requested a subpoena for video

recordings of the Berrien County Jail it would have shown the jail-house witness
never had any contact with Petitioner.
Trial counsel was not effective when failing to secure security surveillance
tape from two different locations when requested by Petitioner, which would
prove that Petitioner did not have any animosity towards each other as they were
all casual friends from the same neighborhood.
Counsel's failure to objectively prepare and obtain the assistance of video
evidence

is unreasonable and brings forth negligence which can not be

misconstrued as sound trial strategy.

Stewart v. Wolfenbarger. 468 F.3d 338

(6th Cir. 2006).
RELIEF REQUESTED:
WHEREFORE, due to counsel's ineffective assistance, Petitioner respectfully
requests that this Honorable Court GRANT this request for Relief as he feels
that he is entitled and REMAND this case to the Trial Court for an Evidentiary
Hearing pursuant to Ginther. supra, for 1st counsel of record being Richard
Sammis.

Also, GRANT such other further and different Relief as this Court may

deem just and proper under the circumstances.

’

VERIFICATION/CERTIFICATION:
I, Javon Charles Davis, under the penalty of perjury states that the
foregoing is true and correct to the best of my information, knowledge, and
belief.
Respectfully Submitted,
S^/fr-tATlA litia

Dated: l O

/

/ 2020.

i fSi

Javon Charles Davis #591753
Pro Se Representation
Chippewa Correctional Facility
4269 West M-80
Kincheloe, MI. 49784-1634

